 Criminal
 I nvestigative
 Policy &
 Oversight
                         Evaluation of
        Military Criminal Investigative Organizations’
            Policies, Practices, and Procedures for
         Investigations Involving Child Sexual Abuse
Report Number CIPO2002S001                        January 11, 2002



              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, home page at http://www.dodig.osd.mil/dcis/cipo/evals.htm, or contact
  Mr. John Perryman, Project Manager, at (703) 604-8765 (DSN 664-8765).

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.

Acronyms
AFCCP                 Armed Forces Center for Child Protection
AFOSI                 Air Force Office of Special Investigations
APSAC                 American Professional Society on the Abuse of Children
ASD(FMP)              Assistant Secretary of Defense (Force Management Policy)
CAPIT                 Child Abuse Prevention and Investigative Techniques
CRC                   Case Review Committee
DoD                   Department of Defense
DoDD                  Department of Defense Directive
DoDI                  Department of Defense Instruction
FACAT                 Family Advocacy Command Assistance Team
FAST                  Family Advocacy Staff Training
FASTA                 Family Advocacy Staff Training Advanced
IG, DoD               Inspector General, Department of Defense
MCIO                  Military Criminal Investigative Organization
NAPA                  National Academy of Public Administration
NCANDS                National Child Abuse and Neglect Data System
NCIS                  Naval Criminal Investigative Service
RFC                   Regional Forensic Science Consultant
SAC                   Special Agent In Charge
SECNAV                Secretary of the Navy
USACIDC               U. S. Army Criminal Investigation Command
USD(P&R)              Under Secretary of Defense (Personnel and Readiness)
                                       TABLE OF CONTENTS


Executive Summary ........................................................................................................... i
Part I - Background ...........................................................................................................1
         Evaluation Objectives, Scope, and Methodology ..................................................3
Part II - Evaluation Results ..............................................................................................6
         A. Child Sexual Abuse in the Military ................................................................6
                National Versus Military Rates..................................................................6
                MCIO Work Time Devoted to Child Sexual Abuse Investigations ..........7
         B. Use of DoD Multidisciplinary Teams.............................................................8
                Policy .........................................................................................................8
                Training......................................................................................................9
                Response to Allegations.............................................................................9
                Team Member Coordination....................................................................10
             Management Comments and Our Evaluation ...............................................11
             Recommendation ..........................................................................................13
         C. Interviewing Child Sexual Abuse Victims ...................................................13
                Use of Video to Record Victim Interviews..............................................15
                Use of Anatomically Detailed Dolls in Victim Interviews ......................15
                Recent Training Enhancements ...............................................................16
             Management Comments and Our Evaluation ...............................................17
             Recommendations.........................................................................................18
         D. Medical Examinations of Victims ................................................................19
         E. Interviewing Suspects in Child Sexual Abuse Investigations.......................20
         F. MCIO Support Resources .............................................................................20
                Armed Forces Center for Child Protection ..............................................20
                Internal Support Resources ......................................................................21
             Recommendations.........................................................................................22


Appendix A - Summary of NAPA Recommendations
Appendix B - Organizations with Effective Practices for Child Sexual Abuse
             Investigations
Appendix C - Survey of Law Enforcement Approaches to Investigating Allegations of
             Child Sexual Abuse (Concept Validation)
Appendix D - Summary Results from Statistical Random Sample
Appendix E - Policy, Regulation, or Program Guidance Addressing Challenges Unique
             to Child Sexual Abuse Investigations
Appendix F - Training that Addresses Challenges Unique to Child Sexual Abuse
             Investigations
Appendix G - Report Distribution
Appendix H - Management Comments
                          Office of the Inspector General, DoD



    MILITARY CRIMINAL INVESTIGATIVE ORGANIZATIONS’ POLICIES,
      PRACTICES, AND PROCEDURES FOR INVESTIGATING CHILD
                         SEXUAL ABUSE

                                  Executive Summary

Introduction. In January 2000, following a report by the National Academy of Public
Administration (NAPA), the Deputy Secretary of Defense directed the Under Secretary
of Defense for Personnel and Readiness (USD(P&R)), in cooperation with the Inspector
General, Department of Defense, to review supporting roles and investigative functions
in military child sexual abuse cases. The goal was to ensure an integrated approach to
resourcing sexual misconduct investigations, particularly those involving child victims.1
This evaluation responds to the Deputy Secretary’s request as it concerns the military
criminal investigative organizations (MCIOs).

Objectives. In researching professional literature and best practices, we identified four
primary challenge areas unique to child sexual abuse investigations:

   • They require a multidisciplinary approach, including activity coordination and
information sharing among medical, social service, legal, and law enforcement
communities.

   • Criminal investigators require specialized training and knowledge to conduct
effective victim interviews.

    •   Specialized medical examinations may be critically important to the investigation.

    •   Special considerations are involved in conducting suspect interviews.

Our primary objective was to determine whether DoD policy and training programs
adequately addressed these unique challenges.

Results. Rates of child sexual abuse in the military are significantly lower than in the
United States generally, and DoD policy and training appear adequate to address the
primary challenges unique to child sexual abuse investigations. DoD, for example,
requires the use of multidisciplinary teams that include law enforcement, medical,
social services, and other professions in resolving child sexual abuse allegations. DoD

1
    Deputy Secretary of Defense Memorandum dated January 24, 2000, “SUBJECT: Implementation of the
    Recommendations of the National Academy of Public Administration.”


                                                 i
policy prescribes team structure, participation, and responsibilities, and DoD trains
investigators and other involved professionals based on the policy. Furthermore, the
MCIOs recognize the special knowledge needed to interview child sexual abuse victims,
and the MCIOs train their agents to ensure they have this knowledge.

We found that DoD has increased its emphasis on child sexual abuse investigations in
the last few years, and this emphasis may not yet be fully reflected in the investigations
we reviewed. Specifically, for investigations involving younger children (under
12 years old) completed during 1997 through 1999, MCIO investigative case files show
coordination with social services personnel in 83 percent of the cases, coordination with
medical personnel in 70 percent of the cases, and coordination with legal personnel in
67 percent of the cases. Similarly, the files show that MCIO agents interviewed about
49 percent of the victims under the age of 12, but in only 56 percent of those cases
were the agents specially trained to interview child victims. The Army rate for use of
specially trained agents was only 25 percent. We also identified segments of both
Army and Navy training that lacked instructor guides and lesson plans with learning
objectives that would ensure consistency in instruction and conformance with policy.
Further, MCIO policies for using anatomically detailed dolls in child interviews are not
fully consistent, although MCIO investigators rarely use that interview technique. The
U.S. Army Criminal Investigation Command (USACIDC) and the Naval Criminal
Investigative Service (NCIS) allow their agents to use anatomically detailed dolls if they
have been trained in their usage. Air Force Office of Special Investigations (AFOSI)
written policy allows agents to use regular dolls; it is silent on using anatomically
detailed dolls, but agents are instructed not to use anatomically detailed dolls. The
policy and training should complement each other.

In addition, DoD has special resources to support child sexual abuse investigations. In
1997, for example, the National Naval Medical Center established the Armed Forces
Center for Child Protection (AFCCP) to provide consultative services for all DoD
agencies needing objective medical expertise in suspected child maltreatment cases.
MCIO program managers and child abuse specialists praise the AFCCP support they
receive and regard it as indispensable to their missions. However, AFCCP has very
limited funding that may prevent needed equipment acquisition and service expansion.
See Part II of the report for details on the evaluation’s findings.

Summary of Recommendations. We recommend that

    • the MCIOs, during appropriate inspection, staff assistance, or oversight visits to
field locations, verify that their criminal investigators involved in child sexual abuse
investigations are participating in multidisciplinary teams, coordinating overall
investigative activities, and sharing information throughout the investigations;

   • USACIDC, through its Sex Crimes and Child Abuse Monitorship Program, give
special emphasis to ensuring that only agents trained in interviewing children interview
child sexual abuse victims;



                                            ii
   • the U.S Army Military Police School block of instruction dealing with child
interviews in the Child Abuse Prevention and Investigative Techniques course include a
lesson plan with learning objectives and instructor guide to ensure consistency in
instruction and conformance with Army policy;

   • NCIS develop coordinated lesson plans with learning objectives and instructor
guides to ensure consistency in training and conformance with NCIS policy;

   • AFOSI written policy and training on the use of anatomically detailed dolls be
consistent; and

   • the USD (P&R) review the resources of the AFCCP and determine whether they
should be enhanced.

Management Comments. On June 21, 2001, we issued this report in draft form for
management comments. Between August 20 and December 20, 2001, we received
comments from USD(P&R) and each of the Military Departments. Generally, they all
concurred with the report. In response to our recommendations, USD(P&R) is
increasing AFCCP funding; Navy developed lesson plans to enhance its training; and
Air Force is reviewing its policy and will make changes in accordance with current
research findings on using anatomically correct dolls. Although concurring with our
report overall, the Army pointed out an apparent inconsistency in our statistics
regarding the number of children under age 12 years included in our sample cases. We
have amended the final report to overcome the apparent inconsistency. In addition,
according to the Army, we did not address incident reporting timeliness in showing
medical coordination rates in the draft report (Part II, Tables 3 and 4). The Army
pointed out that, if an incident is not reported to investigators on a timely basis, medical
evidence may be lost and a subsequent invasive medical examination might further
traumatize the victim. We agree, and have amended language in the final report
accordingly. The Army also requested that we amend the report in several areas based
on its subsequent review of our sample cases. For the reasons described in the report
body, we did not make additional amendments to the report based on the Army request.
The management comments are addressed in detail in Part II of the report and are
reproduced as Appendix H.




                                             iii
    MILITARYCRIMINALINVESTIGATIVE ORGANIZATIONS’POLICIES,
      PRACTICES,AND PROCEDURES FOR INVESTIGATINGCHILD
                       SEXUALABUSE

                                    Part I - Background


        In June 1999, the National Academy of Public Administration (NAPA) published
a report for Congress pursuant to section 1072 of the National Defense Authorization Act
for Fiscal Year 1998. In that report, Adapting Military Sex Crime Investigations to
Changing Times, NAPA stated:
             Sex crimes are very personal violations that require a heightened degree of
             investigative skill and professionalism. Regardless of whether they occur in
             civilian or military life, investigators must consider the traumatic
             circumstances surrounding these crimes, and interact with victims who can be
             fearful, apprehensive, and uncertain.

             When the victims of sex crimes are children, the challenges for investigators
             are even greater.         Interviewing children presents a formidable task.
             Investigators must determine the extent to which children can interpret
             questions, and they must understand that children are particularly susceptible
             to suggestive comments. Moreover, investigators must be skilled to deal with
             parents who do not always lend full-fledged support to investigators, especially
             if they are suspected of the crime. They must also maintain their objectivity in
             highly charged situations. Although the “sexual misconduct” category
             encompasses a wide range of sex crimes, child sexual abuse clearly is one area
             that is set apart by its very unique characteristics.2
     NAPA summarized its position on child sexual abuse investigations as follows:
             Simply put, the investigation of child sexual crimes is different. Many
             investigative areas in the general crime arena require special talents and skills.
             Yet, the investigation of child sex crimes is especially unique. Interviewing
             children, young children in particular, requires special interest, talent and
             ability. Furthermore, dealing with parents, understanding the dynamics of
             child sexual offenders, and medical evidence are some of the other
             considerations which set this investigative area apart. To obtain quality child
             sex crimes investigators, agents need to be screened for these characteristics
             and then receive training to acquire the necessary skills.3


         In DoD, the MCIOs4 investigate serious crimes that involve DoD property,

2
    National Academy of Public Administration, Adapting Military Sex Crime Investigations to Changing
    Times (Washington: National Academy of Public Administration, 1999), 93.
3
    Ibid, 94.
4
    The MCIOs are the U.S. Army Criminal Investigation Command (USACIDC), the Naval Criminal
    Investigative Service (NCIS), and the Air Force Office of Special Investigations (AFOSI).


                                                     1
programs, or personnel. MCIO responsibility includes investigating allegations of child
sexual abuse committed by Service members.5 In addressing MCIO investigations of
child sexual abuse, NAPA stated:
             Child sexual abuse occurs at a significant rate within the Armed Services. In
             1997, the MCIOs initiated approximately nine hundred cases involving some
             type of child sexual abuse, or roughly one quarter of the total sex-related
             cases. That figure is not inconsistent with previous years. Simply put,
             investigating child sexual abuse in the military is not an anomalous
             undertaking. There is no reason to believe that its rate differs from society,
             taking into account the demographic differences.6
     Overall, NAPA concluded:

             In most cases, DoD and the MCIOs have not put enough emphasis on
             investigating child sexual abuse. In addition, they have not done much to
             distinguish child sexual abuse investigations from other sex crime
             investigations. There are several problems, including inadequate policies and
             implementation, insufficient training, and the failure to assign personnel to
             ensure that MCIO units have well-qualified investigators for these cases.7


        Although NAPA reported that it did not have sufficient time to give the
investigation of child sexual abuse offenses the attention it deserved, its limited research
suggested the following questions:
           • Do DoD and the MCIOs recognize the unique challenges posed by child
sexual abuse investigations? Do their policies, guidance, and training put enough
emphasis and priority on such investigations?
            • Are DoD and MCIO policies related to child sexual abuse investigations
consistent, and are they uniformly implemented at the operational level?
           • To what extent do MCIO assignment policies ensure that investigative
units have agents with the interest, aptitude, and training needed to conduct child sexual
abuse investigations?
           • Is there an adequate support structure through which an agent can obtain
resources during the course of a child sexual abuse investigation?

        Although concluding that further study was needed and identifying substantial
questions, NAPA recommended various actions related to child sexual abuse
investigations. Those recommendations are summarized in Appendix A. DoD has not
acted on those recommendations, pending the results of this evaluation.

         As a result of the NAPA report, on January 24, 2000, the Deputy Secretary of

5
    Army Regulation 195-2, “Criminal Investigation Activities,” October 30, 1995; Secretary of the Navy
    (SECNAV) Instruction 5520.3B, “Criminal and Security Investigations and Related Activities Within
    the Department of the Navy,” January 4, 1993; and Air Force Instruction 71-101, volume 1, “Criminal
    Investigations,” December 1, 1999.
6
    NAPA, op.cit., 94.
7
    Ibid.


                                                   2
Defense directed the USD(P&R), in cooperation with the IG, DoD, to review the
supporting roles of personnel and programs under USD(P&R) aegis and MCIO
investigative functions in child sexual abuse cases. The goal of the review was to ensure
an integrated approach to resourcing sexual misconduct investigations, particularly those
involving child victims.

      This evaluation responds to the Deputy Secretary’s request as it concerns the
MCIOs. We announced this evaluation on June 27, 2000, and conducted our fieldwork
from August through December 2000.

Evaluation Objectives, Scope, and Methodology

        Our primary objective was to determine whether DoD policy and training
programs adequately addressed the unique challenges of investigating child sexual abuse
cases. In conducting research for this evaluation, we collected data on child sexual abuse
in both the military and civilian sectors. We identified civilian and government
organizations generally regarded by their peers as having effective practices in the
investigation of child sexual abuse (see Appendix B). We interviewed officials from
those organizations to identify areas they believed were unique to child sexual abuse
investigations. In some cases, we reviewed their materials on training and operating
practices so that we could identify noteworthy or unique investigative considerations
used in their approaches to these investigations. To ensure that we understood the
information they provided, we developed a survey instrument (see Appendix C) that
personnel at each organization completed.

        Our research disclosed that a variety of professions either are, or may become,
involved when an allegation of child sexual abuse is investigated. In addition to the law
enforcement officials who investigate the criminal aspect of the allegation, medical
personnel, attorneys, social workers, clergy, and others may also become involved in
their professional capacities. Unless their respective interests are incorporated into a
cooperative process, their individual efforts taken in isolation can be counterproductive
and may have an adverse impact on the potential for prosecution.

        We also identified several aspects unique to child sexual abuse investigations that
we believed merited closer examination. For example, as NAPA recognized,
interviewing child sexual abuse victims, particularly young children, is different from
interviewing adults. Interviewing younger victims requires special skills if law
enforcement personnel are to collect all essential information while avoiding additional
and unnecessary trauma to victims and their families. Furthermore, a competent physical
examination of the victim may be vitally important to the investigation, and these
examinations require health care practitioners who have specialized training and
equipment. If law enforcement personnel do not recognize the importance of proper
physical examinations of child victims of sexual abuse, they may not ensure that timely,
complete, and appropriate examinations are conducted, and they may not ensure that the
results of such examinations are presented and used properly in the ensuing investigation.
Finally, although not dramatically different from other offender interviews, some special


                                             3
considerations are involved in interviewing suspects in child sexual abuse cases. In these
cases, it is especially important to understand the offender’s motivation. Based on our
research, the following areas are the primary challenges unique to child sexual abuse
cases:
           • Child sexual abuse cases require a multidisciplinary approach, including
coordination of the various aspects of the investigation and ensuring that information is
shared among the participants.
          • Criminal investigators require specialized training and knowledge of
unique procedures that are essential for conducting effective victim interviews.
          • Specialized medical examinations conducted by qualified caregivers may
be important in supporting the investigation.
          • Interviews of suspects require strategies that consider offenders’
motivations and methods of operation for exploiting children.

        After identifying these unique challenges of child sexual abuse investigations, we
reviewed DoD, Military Department, and MCIO policy and training requirements to
determine whether these challenges were adequately addressed. We also had each MCIO
provide investigative data for sex crimes involving victims under age 18 years.8 We
specifically requested data on cases closed during calendar years 1997 through 1999. We
limited our request to investigations in which the MCIO was the primary investigative
agency.9 In response to our request, the MCIOs submitted data on 1,725 cases (an
average of 575 investigations per year). We then selected a random sample of these
closed cases for detailed review and evaluation.10 This resulted in the identification of
153 cases, 51 from each MCIO.

       These 153 cases involved 155 individuals accused of sexual offenses against
persons under age 18 years and 187 victims under age 18 years.11 We visited the MCIOs
and physically reviewed the case files to determine:
               •    the exact nature of the allegations that were investigated;
               •    the basic demographic data pertaining to the victims and subjects;12
               •    the prevalence of common investigative techniques;


8
     We used the following description of child sexual abuse in requesting MCIO case data: “Any form of
     legally prohibited sexual interaction with a minor under the age of 18. The term sex abuse includes
     forcible sexual assault, statutory rape, forcible or consensual oral or anal sodomy, forcible or consensual
     touching of the minor’s genitals and buttocks (and if a female, her breasts), prostitution, and the
     videotaping and photographing of a minor in such sexual activity or in lewd and lascivious display of
     the genitals.”
9
     This excluded cases in which the MCIOs merely assisted or monitored other law enforcement agency
     investigations.
10
     We used a stratified random sample design, with assistance from Inspector General statisticians. The
     results can be projected MCIO-wide at a 95 percent confidence level.
11
     Some investigations involved multiple offenders or multiple victims.
12
     In the criminal investigative community, the term “subject” or “investigative subject” is used to refer to
     a person suspected of having committed a crime.


                                                        4
               •   whether or not multidisciplinary teams were employed; and
               •   the qualifications of the MCIO agents who conducted child victim
interviews.

        We aggregated the 153 cases by the victim’s age when the alleged abuse started in
order to assess differences in the nature of the crimes investigated based upon the
victims’ age group.13 Eighty-three cases (54 percent of the 153) and 102 victims
(55 percent of the 187 victims) involved children under the age of 12. Appendix D,
“Summary Results From Statistical Random Sample” summarizes the subject, victim,
and abuse information from the 153 cases we evaluated.




13
     Age 12 years is typically regarded as the separation point between childhood and adolescence, and we
     adopted this as our threshold for distinguishing between age groups. Further, our assessments based on
     age are generally based on when the alleged abuse began. In some instances, however, such as in
     considering victim interview data, we based age considerations on when the victim was interviewed.
     See Table 5.




                                                      5
     MILITARYCRIMINALINVESTIGATIVE ORGANIZATIONS’POLICIES,
       PRACTICES,AND PROCEDURES FOR INVESTIGATINGCHILD
                        SEXUALABUSE

                               Part II - Evaluation Results


A.        Child Sexual Abuse in the Military

        Although child sexual abuse does occur within the military community, the rate of
victimization for military dependent children is significantly lower than the rate for the
United States generally. The rate for the United States is 1.4 per thousand, and the rate
for the military is 0.8 per thousand.

          National Versus Military Rates

        The U.S. Department of Health and Human Services compiles data from the
States and reports information on child maltreatment in the National Child Abuse and
Neglect Data System (NCANDS). For 1998, NCANDS categorized 99,278 reports of
child sexual abuse as either substantiated or indicated, a rate of 1.4 per 1,000 children in
the general population of the United States.14 By comparison, as shown in Table 1, the
rate of child sexual abuse in the Military Departments ranged from 0.3 to 1.1 per
thousand military dependent children, and averaged 0.8 per thousand overall. Thus, the
NCANDS-reported rate for the United States is higher than the average military rate.15




14
     U.S. Department of Health and Human Services, Administration on Children, Youth and Families,
     Child Maltreatment 1998: Reports from the States to the National Child Abuse and Neglect Data
     Systems (Washington DC: U.S. Government Printing Office, 2000), pages E-3 and E-11. NCANDS
     excludes data for the States of Maryland, Massachusetts, and North Dakota, which did not report sexual
     maltreatment information to NCANDS for 1998.
15
     We believe this comparison is reasonable and usable for all general purposes. NCANDS data are
     compiled from individual State reports and are based on individual State laws and definitions, including
     the age constituting a child for reporting purposes. Further, the States report “substantiated or
     indicated” abuses, again subject to individual State definitions.


                                                      6
                          Table 1. Rates of Child Sexual Abuse in the Military

                                             Dependent               Substantiated
                 Military
                                        Children Under
                                                                                                       Rate per
                                                                      Child Sexual
                Department                                                                                   1,000
                                         Age 18 Years*             Abuse Reports**
              Army                                436,809                           420                        1.0
              Navy                                319,315                           356                        1.1
              Air Force                           342,185                           205                        0.6
              Marine Corps                        102,376                             31                       0.3
              Total                            1,200,685                     ***1,012                          0.8
          *
              1998 population data provided by Director, Family Advocacy Program, Military Community
              and Family Policy, Office of the Assistant Secretary of Defense (Force Management Policy).
         **
              DoD Directive 6400.1, “Family Advocacy Program,” enclosure 2, June 23, 1992, defines
              substantiated as “[a] case that has been investigated and the preponderance of available
              information indicate that abuse has occurred. This means that the information that supports the
              occurrence of abuse is of greater weight or more convincing than the information that indicates
              that abuse did not occur [emphasis added].” Each Military Department’s Family Advocacy
              Program uses this definition in reporting substantiated cases, which should make their reports
              reasonably comparable with the NCANDS category of substantiated or indicated. The Military
              Department Family Advocacy Program Offices provided the reports used for this table.
       ***
              These reports of abuse do not necessarily indicate a Service member victimized the child.


          MCIO Work Time Devoted to Child Sexual Abuse Investigations

        The MCIOs devote approximately 6 percent of their total work time to the
investigation of allegations of child sexual abuse, as shown in Table 2.


    Table 2. Percent of Total Work Time Devoted to Child Sexual Abuse Investigations*

                                                               Calendar Year
                       MCIO
                                                      1998            1999                       Average
                    USACIDC                           5.02             5.57                         5.30
                    NCIS**                            7.00             7.76                         7.38
                    AFOSI**                           8.00             4.00                         6.00
                    Average***                        6.67             5.78                         6.23
   * Prior to implementing a new computer system in 1997, AFOSI did not collect this type of data.
  ** Percent determinations exclude NCIS and AFOSI foreign counterintelligence work.
 *** Simple average. The MCIOs reported their individual annual percentages, but not the hours used to calculate those
     percentages.




                                                               7
B.        Use of DoD Multidisciplinary Teams

        DoD policies require multidisciplinary teams and information sharing in
addressing child sexual abuse complaints. Additionally, these requirements are included
routinely in training.

        According to the U.S. Department of Justice, Office of Justice Programs, the most
effective approach to child maltreatment cases is through the use of multidisciplinary
teams that include police, social workers, physicians, attorneys, and other professionals.
These multidisciplinary teams plan and coordinate the investigations, resolve internal
differences, and determine the best way to meet the needs of the child while resolving the
criminal allegation.16 The use of multidisciplinary teams therefore augments and extends
investigator qualifications and can effectively negate the deficit that accrues when the
investigation is handled solely by an investigator (especially one who is inexperienced in
child sexual abuse investigations).

          Policy

        DoD requires the use of multidisciplinary teams to resolve child sexual abuse
allegations.17 DoD policy (both DoD-wide and at the Military Department level)
prescribes team structure, participation, and responsibilities of multidisciplinary teams.
This policy is part of the DoD Family Advocacy Program, which the Office of Family
Policy, Office of the Assistant Secretary of Defense (Force Management Policy)
(ASD(FMP)), directs.18 The multidisciplinary teams are commonly referred to as Case
Review Committees (CRCs). A CRC is defined in DoD Directive 6400.1 as “a
multidisciplinary team of designated individuals working at the installation level, tasked
with the evaluation and determination of abuse and/or neglect cases and the development
and coordination of treatment and disposition recommendations.”

         The Military Departments implement this policy either as part of their personnel
function (Navy) or as a medical function (Army and Air Force). At the installation level,
the variously named CRCs all require representatives of the medical, social services,
legal, law enforcement, and investigative communities to share information they have on
each child sexual abuse case. The alleged abuser’s military unit is encouraged to
participate and may attend the meetings. The CRC sends its recommendations to the
subject’s commander for action.




16
     U.S. Department of Justice, Office of Justice Programs Guide, “Law Enforcement Response to Child
     Abuse,” May 1997.
17
     DoD Directive 6400.1, “Family Advocacy Program,” June 23, 1992.
18
     The DoD Family Advocacy Program addresses family violence prevention, identification, evaluation,
     treatment, rehabilitation, follow up, and reporting. The program consists of coordinated efforts to
     prevent and intervene in cases of family distress, and to promote healthy family life.


                                                    8
       Training

        The Army offers specialized multidisciplinary training attended by other Services.
As explained below, we were unable to adequately assess the Navy Family Advocacy
training.

       The Army also offers advanced training under Family Advocacy Staff Training
Advanced (FASTA). FASTA training is actually a group of 1-week courses targeting a
multidisciplinary audience and presents special family advocacy issues. Two of these
courses were relevant to our evaluation.
            • The multi-victim FASTA course is a 1-week course designed to develop
interdisciplinary skills of CRC members, including law enforcement personnel and
criminal investigators, in managing out-of-home allegations of child sexual abuse in
DoD-sanctioned activities, such as child development centers. The course trains CRC
members to use a systematic method to interview children in order to ensure validity.
The course also teaches members how to organize and use community resources to
manage incidents in which there may be multiple victims.
            • The 1-week forensic child sexual abuse FASTA course develops the skills
of clinicians, counselors, investigators, and medical professionals who are directly
involved in handling child sexual abuse investigations. The training focuses on forensic
interviews, treatment modalities, counseling the non-offending parent, and preparing the
professional to advocate for the child in court.

        The Army Family Advocacy Staff Training (FAST) course trains Army, Air
Force, and Marine Corps military and civilian personnel. For 2 weeks, social workers,
psychologists, military police, criminal investigators, lawyers, physicians, prevention
specialists, victim advocates, nurses, and Family Advocacy Program managers are
trained on the DoD Family Advocacy Program. FAST emphasizes the roles of the
various disciplines and their productive interactions to intervene and manage domestic
violence and child abuse, including child sexual abuse. FAST trained 1,175 students
during FYs 1998 through 2000.

        The Navy Family Advocacy Program has a 32 to 36 hour training course for
military and civilian CRC members. According to the NCIS Child Sexual Abuse
Program Manager (who teaches at the course), the course emphasizes understanding the
roles and responsibilities of the various disciplines affecting the CRC team approach to
resolving allegations of domestic violence and child abuse, including child sexual abuse.
However, the program manager advised us that no lesson plans, syllabi, course outlines,
or descriptions of the course existed. We, therefore, were unable to review the training in
detail.

       Response to Allegations

        When an instance of child sexual abuse is alleged, DoD responds with specially
trained and organized groups. The number of victims, the notoriety of the investigation,
and the local availability of resources govern the size and scope of any given response to


                                             9
an allegation of child sexual abuse.

       Within the Military Departments, the Family Advocacy Program (FAP) is the
primary program for responding to child sexual abuse allegations. Under each FAP, the
Military Departments created specialized structures for dealing with child sexual abuse.
Army installations rely on CRCs, but have latitude to establish separate, specialized
CRCs to respond to child sexual abuse allegations.19 Navy installations use the Navy
Regional Child Sexual Abuse Response Team.20 Air Force installations use the Child
Sexual Maltreatment Response Team.21 In each case, the teams are multidisciplinary and
include MCIO representatives.

         Under FAP, upon a component request, ASD(FMP) launches a Family Advocacy
Command Assistance Team (FACAT).22 FACATs commonly include investigators and
specialists in social services, pediatrics, psychology/psychiatry, law, family advocacy,
childcare administration, and the education disciplines. The teams are normally deployed
in response to allegations of multiple-victim child sexual abuse incidents arising in family
childcare facilities, child developmental centers, youth programs, DoD schools, or other
DoD-sanctioned activities. Teams consist of personnel in the Military Departments who
have received special training sponsored by the ASD(FMP). FACAT team members are
experienced in their professional capacities and train jointly on interactions among their
respective specialties. FACAT training takes a full week and is generally given to 70 -
80 people every 3 to 4 years (the last time it was offered was in 1998). Most people who
receive FACAT training are civil service employees who remain in their positions or who
move to a similar position in a different Military Department. FACAT training focuses
on understanding and exploiting the resources each specialty possesses to solve multiple-
victim, out-of-home child sexual abuse allegations. From 1997 through 1999, FACATs
deployed three times to help resolve possible child sexual abuse allegations involving a
total of 148 children.

        Appendixes E and F detail DoD policy and training, respectively, for responding
to child sexual abuse allegations. DoD policy requires using multidisciplinary teams and
the sharing of information in these types of cases. In addition, the response requirements
are routinely trained.

Team Member Coordination

       Multidisciplinary teams that conduct DoD child sexual abuse investigations are
required to coordinate their activities and share information. In reviewing a random
sample of closed cases at the respective MCIO headquarters, we noted each instance in
which the files indicated that investigative activities were coordinated with legal,
medical, or social services personnel. Tables 3 and 4 present our findings based on
whether the victims were over or under 12 years of age.

19
     Army Regulation 608-18, “The Army Family Advocacy Program,” September 1, 1995, paragraph 2-3.b.
20
     OPNAV Instruction 1752.2A, “Family Advocacy Program,” July 17, 1996, paragraph 5.
21
     Air Force Instruction 40-301, “Family Advocacy,” July 2, 1994, paragraphs 1.5 and 2.3.1.
22
     DoD Instruction 6400.3, “Family Advocacy Command Assistance Team,” February 3, 1989.


                                                  10
                  Table 3. Coordination Reflected in Investigative Files
                               Victims Under Age 12 Years
                           (Percent of Total Victims Per Service)

                                  Type Organization Involved in MCIO
                   MCIO                     Coordination
                                    Legal Social Services      Medical
              USACIDC                  77               73          45
              NCIS                     77               88          77
              AFOSI                    48               87          87


                  Table 4. Coordination Reflected in Investigative Files
                             Victims Age 12 Years and Over
                           (Percent of Total Victims Per Service)

                                  Type Organization Involved in MCIO
                   MCIO                     Coordination
                                     Legal Social Services Medical
              USACIDC                   61              31         22
              NCIS                      71              58         26
              AFOSI                     66              58         45

         As can be seen in Tables 3 and 4, the review of MCIO investigative files
disclosed substantial coordination with legal, medical, and social services, especially
when the victims were younger. They did not, however, show coordination in all or
virtually all such investigations, as would be expected based on DoD policy and training.
On the other hand, these tables are based on data available in the MCIO case files
maintained at headquarters, which may not include information on all actual
coordination. USACIDC and NCIS agents do not send their entire criminal investigative
files to headquarters for retention. Some documentation, such as agent’s notes and case
memorandums, is generally retained in local field office investigative files. Therefore,
the actual rates of coordination may be higher than the levels shown in Tables 3 and 4.
Nonetheless, to ensure full compliance with policy, the MCIOs should take steps to make
certain that coordination and information sharing occurs routinely in all child sexual
abuse investigations. This could be accomplished during recurring inspections, staff
assistance visits, and internal oversight visits to MCIO field locations.

Management Comments and Our Evaluation

        The Military Departments all concurred with our report. In its comments,
however, the Army questioned the USACIDC statistics reported in Tables 3 and 4,
indicating that they were not consistent with USACIDC findings in a subsequent re-
evaluation of the sample cases. According to the Army comments, USACIDC completed
legal coordination in all but one case in the sample and this case was referred to FBI for
follow-on investigative work. Further, the Army indicated that the medical coordination
percentages reported for USACIDC might not be accurate representations, since the

                                            11
report did not consider whether incidents were reported on a timely basis. According to
the Army, if an incident is not reported timely, a subsequent invasive medical
examination can further traumatize the victim. Therefore, the Army indicated that the
report should be modified to reflect actual USACIDC legal coordination in the sample
cases, as well as to reflect that medical coordination might not always be required or
conducted if the incident is not reported in a timely manner.

        We do not agree. The data that was reported represent the coordination reflected
in the headquarters case files when we completed our fieldwork. In presenting this data,
we specifically advised that the headquarters files, might not reflect the full coordination
completed in Army and Navy cases. Furthermore, although we agree that untimely
reporting of an incident could result in a lost opportunity to collect evidence through a
medical examination, we do not present judgments on the need for specific forensic
medical examinations. Tables 3 and 4 only display whether we saw indications that
alleged child sexual abuse was coordinated with medical professionals.

         Though not tied to a particular recommendation, the Army also questioned our
statistical sampling methodology and suggested that it be refined in future studies.
According to the Army, USACIDC accounted for 55 percent of the total investigations
from which our sample was taken, with NCIS and AFOSI accounting for the remaining
45 percent. As a result, the Army indicated that a statistical sampling should have
resulted in about twice as many USACIDC cases being reviewed, but each MCIO had
about the same number of cases reviewed. Since USACIDC investigates about twice as
many child assaults as the other MCIOs, the Army requested that we include an
additional recommendation that USACIDC receive twice the number of training
allocations as the other MCIOs.

        We understand the Army’s concern that its larger case proportion did not result in
a larger sample proportion. However, the random sampling methodology that we applied
was valid to the 95 percent confidence level and produced results that may be projected
to the overall case universe with the same confidence level. Accordingly, there is no
reason to adjust our sampling methodology for future studies. In addition, although
OUSD(P&R) funded some Family Advocacy Program training prior to FY 1998, the
Services now fund their own training. In fact, since FY 1998, the Army has continued to
authorize and fund the FAST course and invites the other Services to purchase training
slots for FAST. Accordingly, the Army establishes its own training allocations, and there
is no reason for us to recommend that it be given additional allocations.




                                             12
                                        Recommendation
          1. The Military Criminal Investigative Organizations, during recurring
             inspection, staff assistance, and oversight visits to field locations, verify
             that criminal investigators involved in child sexual abuse investigations
             are in all such cases participating in multidisciplinary teams,
             coordinating overall investigative activities, and sharing information
             throughout the investigations.

        Management Comments: The Services all concurred with the recommendation.
Air Force commented that its current Unit Compliance Inspection process (UCI) includes
reviewing the detachment’s closed investigative files for sufficiency and documentation
and, in reviewing any child sexual abuse investigation, the inspectors verify that
coordination was completed with a Forensic Science Consultant, as well as with medical
and legal authorities. The comments are responsive to our recommendation.

C.        Interviewing Child Sexual Abuse Victims

        According to the American Professional Society on the Abuse of Children
(APSAC), at a minimum, investigators who interview children should have some
familiarity with
                  •        basic concepts of child development,
                  •        communication abilities of children,
                  •        dynamics of abuse and offenders,
                  •        categories of questions necessary for a thorough investigation,
                  •        legally acceptable child interview techniques, and
                  •        the use of interview aids.23

The APSAC guidelines stress that this familiarity is especially important when
investigators interview younger children.

        For DoD, there are no specified training requirements for police officers or
criminal investigators who interview child sexual abuse victims.24 Nonetheless, Military
Department and MCIO policies address the need for investigators who interview child
sexual abuse victims to understand child development, the nature of the sex crime, and
legally acceptable interview techniques,25 as demonstrated in Appendix E. Each MCIO
now familiarizes its agents with these aspects relevant to child interview issues during

23
     “APSAC Guidelines on Investigative Interviewing in Cases of Alleged Child Abuse,” April 2000.
24
     FAP has education and licensure requirements for diagnostic assessment interviews when the sexual
     abuse victim is a child. These requirements are set forth in DoD Manual 6400.1-M, “Family Advocacy
     Program, Standards and Self-Assessment Tool,” August 1992.
25
     MCIO efforts in this area expanded after NAPA began its evaluation in 1998. See Recent Training
     Enhancements on page 15 of this report.


                                                   13
their basic training for special agents. Furthermore, the MCIOs, through policy and
practice, ensure that their agents have substantial access to specialized resources when
conducting child sexual abuse investigations (see “MCIO Support Resources,” page 20).
Each MCIO also offers advanced, specialized training on interviewing child sexual abuse
victims (see Appendix F). Overall, the MCIOs do not train apprentice agents to conduct
specialized child forensic interviewing; however, we believe MCIO advanced training
prepares agents adequately to conduct interviews in child sexual abuse cases.

        We reviewed our sample of closed investigative cases to determine whether the
MCIO agents who interviewed child victims had received specialized training. During
the 3 years included in our review (1997-1999), 79 victims of child sexual abuse were
under 12 years of age when first interviewed. Of these victims, an MCIO agent
interviewed 39 (49 percent) of them.26 The proportion of these 39 interviews that were
conducted by agents who received specialized training is shown in Table 5.


                                   Table 5. MCIO Victim Interviews
                                 Conducted by Specially Trained Agents
                          (Victims Under Age 12 Years at Initial MCIO Interview)

                    MCIO                               1997       1998      1999       Total      Percent
      USACIDC
       Number of victims interviewed                          3        6          7        16
       Specialized interviews*                                0        3          1         4            25
      NCIS
       Number of victims interviewed                          3        2          2          7
       Specialized interviews*                                2        2          2          6           86
      AFOSI
       Number of victims interviewed                          7        1          8        16
       Specialized interviews*                                4        0          8        12            75
      Total MCIOs
       Number of victims interviewed                         13        9        17         39
       Specialized interviews                                 6        5        11         22            56
*A specially trained MCIO agent conducted interview.


        As can be seen in Table 5, specially trained agents interviewed 22 of the
39 victims (56 percent). The relatively low overall percent of interviews conducted by
specially trained agents is disproportionately influenced by the USACIDC totals, where
specially trained agents conducted only 25 percent of the interviews. However, upon
closer examination, we found that
           • a social worker assisted 4 of the 12 USACIDC agents who interviewed
without specialized training,



26
     A child protective service worker, local police detective, child interview specialist, or other professional
     normally interviewed victims who were old enough to interview and whom a MCIO agent did not
     interview.


                                                        14
           • a social worker assisted the one NCIS agent who interviewed without
specialized training, and
           • a social worker assisted three of the four AFOSI agents who interviewed
without specialized training.

        It is unclear whether or not having a social worker present during these interviews
adequately offset the agent’s lack of specialized training. It is clear, however, that the
MCIOs have increased their emphasis on child sexual abuse investigations and related
training subsequent to the period covered in our case reviews (see Recent Training
Enhancements, page 16). For example, subsequent to the child interviews in the cases we
reviewed, 10 of the 12 USACIDC agents without specialized training who interviewed
the children have been given the specialized training.

          Use of Video to Record Victim Interviews

        One area, that NAPA identified as clearly illustrating discrepancies and
inconsistencies among MCIO child sexual abuse investigations, involved videotaping
child interviews. When interviewing field agents, NAPA encountered a variety of
personal preferences that ranged from videotapes helping “. . . minimize trauma suffered
by child victims . . ." to videotapes being ". . . hotly debated in courtrooms . . ." and
discouraged by prosecutors. We found that each MCIO has policy allowing video
recordings, and each has training on properly using video-recording equipment.
However, the MCIOs all require investigators to coordinate with the local staff judge
advocate before videotaping an interview. Of the interviews of 39 younger children
conducted by MCIO agents, 19 (49 percent) were videotaped. We think this coordinated
approach, the previously mentioned current MCIO policies limiting the interviews of
child sexual abuse victims to specially trained agents, and Recommendation 2 effectively
address the NAPA concerns.

          Use of Anatomically Detailed Dolls in Victim Interviews

         Another area addressed in the NAPA report involved the use of anatomically
detailed dolls during the course of child interviews. We found that MCIO investigators
rarely used this interview technique. Of the 39 younger children interviewed by MCIO
agents, only 2 (5 percent) involved the use of anatomically detailed dolls. USACIDC and
NCIS allow their agents to use anatomically detailed dolls if the agents have been trained
in their use.27 AFOSI guidance allows agents to use regular dolls, but is silent on the
issue of using anatomically detailed dolls. According to the AFOSI program manager
(who is also the AFOSI Command Psychologist and the person who conducts all AFOSI
training on interviewing child sexual abuse victims), she instructs AFOSI agents to not
use anatomically detailed dolls. Instead, she trains them to use a drawing technique
designed to be stimulus neutral, allowing children to express something that may be too
difficult to verbalize. She stated that she believes anatomically detailed dolls are not a
27
     The outside organizations and agencies that we consulted during our evaluation all agreed that only
     agents trained to use anatomically detailed dolls should use them.


                                                      15
substantive benefit during interviews and can be distracting to the child because they
“probably do not look like” any doll the child has seen. As a result, she says their
appearance can be startling to a child.

        As is apparent, MCIO policy on the use of anatomically detailed dolls is not
consistent. This situation generally reflects the uncertainty that exists in the professional
community. In The Sexual Exploitation of Children, A Practical Guide to Assessment,
Investigation, and Intervention, the author points out that using anatomically detailed
dolls in child interviews is controversial. He cites instances when a professional may be
able to use the dolls effectively, but concludes that their use is not mandatory and that a
“…child’s own dolls often work as well, if not better, because the child will be more
familiar with them and have little or no fear of using them.”28 Similarly, APSAC
guidelines acknowledge concerns that the dolls may be suggestive, encourage false
reports, or be traumatizing, but conclude that they may enhance an interview when used
by knowledgeable, experienced professionals. Overall, APSAC concludes that additional
research is needed in this area.29 We agree. We also agree that this interview technique is
controversial and that only well-trained and experienced personnel should attempt its
application in child victim interviews. USACIDC and NCIS have clear policy regarding
this technique. AFOSI does not have clear policy, but has operating practices that
preclude using the interview technique. AFOSI should adopt specific policy and not rely
on implementation of policy through training decisions. The MCIOs should stay abreast
of research in this area to adapt their policies as appropriate.

          Recent Training Enhancements

         In recent years, the MCIOs have taken actions to enhance their agents’ skills in
conducting child abuse investigations. In 1999, the Commander, USACIDC, established
child abuse investigations as a core competency. As a result, all USACIDC agents are
required to attend the Army’s Child Abuse Prevention and Investigative Techniques
(CAPIT) course (referenced in Appendix F). By September 30, 2000, USACIDC had
sent 58 percent of its agents to this training. By FY 2004, USACIDC expects 90 percent
of its agents will have completed this training.

         NCIS and AFOSI have begun using specialized child forensic interview training
to enhance their agents’ skills. The Navy Family Advocacy Program contracted with
APSAC and began this type of training in 1999.30 AFOSI developed its Advanced Field
Agent’s Course on Child Forensic Interviews (referenced in Appendix F) in 1998. NCIS
is training approximately 25 agents per year, and AFOSI is training approximately
40 agents per year.


28
     Seth L. Goldstein, The Sexual Exploitation of Children, A Practical Guide to Assessment, Investigation,
     and Intervention (Boca Raton: CRC Press LLC, 1999), 270-271.
29
     American Professional Society on the Abuse of Children, Practice Guidelines, Use of Anatomical Dolls
     in Child Sexual Abuse Assessments (Chicago: American Professional Society on the Abuse of
     Children, 1995), 2-4.
30
     Future Navy Family Advocacy Program child interviewing courses will incorporate APSAC training
     components, but will be opened to competitive-bid contracting.


                                                     16
        The Army, Navy, and Air Force training identified in Appendix F conforms in
large measure to the APSAC guidelines for interviewing child victims. All MCIOs have
policies or guidance stressing that only people trained to interview children should
conduct these interviews. Our review of the policies, training, and investigative cases
sustain the conclusion that the MCIOs understand the unique challenges involved in
interviewing children and that they are making substantive, continuing efforts to improve
their competence in this area.

Management Comments and Our Evaluation

        The Military Departments all concurred. The Army, however, questioned the
different numbers that we reported for victims under the age of 12 years involved in our
analyses. As we pointed out in the draft report (see Footnote 13 in the final report), we
generally based age assessments on when the alleged abuse began; however, those
assessments involving interviews were based on victim age when the MCIO first
interviewed the victim. To avoid further opportunity for confusion on this issue, we have
clarified the information introducing Table 5, as well as the Table 5 heading, to make
clear that the victims involved were those who were under age 12 years when first
interviewed by the MCIO.

        The Army also commented that we did not credit three 1997 Army interviews as
being conducted by specially trained agents. This comment apparently derives from
notations on a worksheet that we sent to the Army while it was evaluating the draft
report. The Army requested a list of its specific cases that we reviewed where the victims
were under age 12 years when interviewed. Our worksheet noted the agents who had
attended FAST courses overall. One FAST course, however, did not include specialized
child interview training. Three USACIDC agents who conducted child interviews in
1997 attended this course. We credited all MCIO agents, including USACIDC agents,
with attending the FASTA courses that covered child interviewing (see Section B,
Training).

        In addition, the Army asserts that our inability to evaluate NCIS specialty training
in as much detail as we were able to evaluate USACIDC specialty training should be
noted specifically at Table 5. We do not agree. The fact that NCIS did not have lesson
plans or instructor guides for specialized child interview and follow-on training, which
required us to rely on presentation slides in reviewing this training, is already amply
discussed in the report (see Appendix F, and Section F, MCIO Support Resources, Navy)
and is the basis for a separate recommendation to NCIS (Recommendation 6).

        Finally, the Army states that we did not evaluate individual USACIDC agent
backgrounds, and some have received specialized training in child development and
training in college courses, unit training, or local/regional discretionary training with
other law enforcement agencies. In addition, the Army states that every USACIDC agent
receives 12 hours of child interview specific training in the apprentice special agent
course, and 480 USACIDC agents have received advanced specialty training since 1997.
According to the Army, giving full credit for this training might well increase the training


                                             17
percentages. We agree. However, that was not the basis for our evaluation of MCIO
training. Our evaluation focused on the training that best reflected the MCIO policies
and procedures and, specifically, whether agents received specific, advanced training to
equip them to deal with the unique challenges involved in interviewing child sexual
abuse victims. As a result, we did not include basic agent training for any MCIO.
Furthermore, to the extent that USACIDC agents have met advanced training
requirements through previous college, unit, or local/regional training, we would expect
to see records waiving specific individuals from requirements to attend advanced training
by or for the MCIO. We did not see such records. During our evaluation, however, we
did submit the names of the 16 USACIDC agents who interviewed victims under age
12 years to the FASTA course manager and the CAPIT course manager. These managers
identified training these individuals had attended based on their records, and this
information was taken into account in developing Table 5.

                                         Recommendations
          2. We recommend that the U.S. Army Criminal Investigation Command,
             through its internal oversight program, give special emphasis to ensuring
             that agents who interview victims of child sexual abuse have been trained
             to interview children.31

       Management Comments. The Army concurred, but did not identify how it
intends to give this special emphasis. In commenting on the final report, the Army
should provide further detail, including the specific action(s) it will take and when it
began or expects to begin taking the individual actions.
          3. We recommend that the U.S. Army Criminal Investigation Command
             adopt a lesson plan with learning objectives and instructor guide for its
             block of instruction dealing with child interviews in the Child Abuse
             Prevention and Investigative Techniques training program.

        Management Comment. The Army concurred, advising that U.S. Army Military
Police School (USAMPS) lesson plans for child interviews are being converted into one
lesson plan to be taught by USAMPS subject matter experts, and the new lesson plan
incorporates all information identified in our evaluation. In commenting on the final
report, the Army should provide estimated completion dates for the new lesson plan and
for implementing the new plan in actual training.
          4. We recommend that because Air Force Office of Special Investigations
             instructs its agents to not use anatomically detailed dolls during the
             interview of children, such guidance should be incorporated in its written
             policy.

          Management Comments. The Air Force concurred, advising that AFOSI policy

31
     We expect that NCIS and AFOSI will continue at the high ratio of specially trained agents doing these
     types of interviews as established in the 1999 statistics we developed.


                                                     18
would be reviewed and changes recommended based on current research findings on
using anatomically detailed dolls. Estimated completion date for the action was
December 1, 2001. In commenting on the final report, Air Force should update this
information, including an estimated completion date for implementing the revised policy.

D.        Medical Examinations of Victims

        The Department of Justice points out that “[m]edical evidence can provide
powerful and convincing corroboration to an allegation of sexual abuse.”32 Although it is
clear that people who receive training in sexual abuse forensic examinations should be
the ones to conduct such examinations, they are not always available. Dr. Barbara Craig,
Armed Forces Center for Child Protection, National Naval Medical Center, Bethesda,
Maryland, provided 1998 survey information revealing that 70 percent of the faculty and
63 percent of the residents in pediatric training programs thought they did not learn
enough to perform child sexual abuse evaluations. Criminal investigators do not conduct
those examinations, but we believe they should have some knowledge of the evidence
that might be obtained from a forensic medical examination. The external agencies we
contacted and the Department of Justice advised that criminal investigators should be
familiar with the protocols that comprise a medical examination in sexual assault cases.33

       Based on our case reviews, 48 victims under age 12 years (61 percent of the total)
received medical examinations. We believe that less than half (46 percent) of those
examinations had been conducted by medical personnel who were specifically trained in
conducting sexual assault examinations.34 In our view, these results validate the need to
train MCIO agents on evidence that might be obtainable from a medical examination of a
victim of child sexual abuse. Such training enhances their ability to advise medical
personnel unfamiliar with the procedures.

        As Appendix E and Appendix F indicate, the MCIOs have policies and training
that address evidence obtainable from a medical examination. We note in particular that
the Army’s medical “Protocol For Child Abuse and Neglect” and the Army Installation
Handbook, Managing Out of Home Child Sexual Abuse Cases, both used for training in
the CAPIT course, include exceptionally good information on forensic medical
examinations.




32
     U.S. Department of Justice, Office of Justice Programs Guide, “Criminal Investigation of Child Sexual
     Abuse,” May 1997.
33
     U.S. Department of Justice, Office of Justice Programs Guide, “Criminal Investigation of Child Sexual
     Abuse,” May 1997.
34
     Our conclusion in this respect is based on various factors. For example, if (a) a sexual assault center
     conducted the examination, (b) a child protective service referred the victim to the healthcare provider
     or clinic, or (c) detail in the medical exam report indicated a knowledge of forensic medical
     examinations, we counted the examination as having been conducted by medical personnel trained in
     sexual assault examinations.


                                                      19
E.     Interviewing Suspects in Child Sexual Abuse Investigations

        The external agencies we contacted thought investigators who interview people
suspected of child sexual abuse should be specifically trained in interview strategies that
consider the nature of the relationship between victims and offenders. They indicated
that this training would help interviewers design interrogation strategies and prepare them
for the “explanations” and “rationalizations” abusers are likely to offer. Because abuser
confessions may provide a wealth of corroborating evidence, interviews of suspected
abusers require careful preparation and a thorough understanding of the abusers’ motives
and rationalizations.

       The subject interview is a significant part of child sexual abuse investigations.
Our review of closed case files disclosed that of the 30 subjects tried in court for sexually
abusing children under age 12 years, 22 (73 percent) confessed during interrogation. The
MCIOs were remarkably similar in this respect: the USACIDC rate was 75 percent; the
NCIS rate was 71 percent; and the AFOSI rate was 73 percent. MCIO policy
(Appendix E) and training (Appendix F) provide for developing interview strategies
unique to child sexual abuse interrogations.

        Overall, we believe that DoD, Military Department, and MCIO policies, training,
and operational requirements are adequate to meet the challenge of subject interviews in
child sexual abuse investigations.

F.     MCIO Support Resources

       Armed Forces Center for Child Protection

        In 1997, the Executive Board at National Naval Medical Center, Bethesda,
Maryland, approved an initiative to establish the Armed Forces Center for Child
Protection. AFCCP was created to provide consultative services for all DoD agencies
needing objective medical expertise in suspected child maltreatment cases. At the time of
our evaluation, the center was staffed with a director (a Navy captain), who is a board-
certified pediatrician; a pediatrician (an Air Force lieutenant colonel); a nurse clinic
manager (a Navy commander); a social worker funded by the Navy Family Advocacy
Program; and a pediatric nurse practitioner funded by the Air Force Family Advocacy
Program. AFCCP expected a third pediatrician (a Navy commander) to be assigned
during the summer of 2001. AFCCP has a limited annual budget of $3,500, and agencies
that request consultative service and testimony must fund travel and other expenses
related to their requests.

        According to AFCCP, the center’s low funding level may impede its continued
effectiveness. For example, AFCCP has neither a computer nor funds to acquire one for
the pediatrician being assigned. Likewise, AFCCP does not currently have a computer
projector to support lectures or enhanced software systems to expand into telemedicine
using the World Wide Web. The center is actively seeking ways to encourage its largest

                                             20
clients, judge advocates and criminal investigators, to support additional needs.

        AFCCP estimated that it had conducted more than 700 medical/legal reviews and
given more than 1,000 lectures to multidisciplinary audiences (physicians, nurses,
lawyers, and criminal investigators) since its establishment in 1997. The center’s child
sexual abuse topics have included medical examinations, sexual assault kits, interview
strategies, child pornography, photo-documentation of injuries, long-term sequelae of
adverse childhood experience, and normative sexual behavior in children.

       MCIO program managers and child abuse specialists have enthusiastically praised
the support they have received from AFCCP. They also advised that they regard AFCCP
support as indispensable to their missions.

          Internal Support Resources

        The MCIOs each have internal resources for child sexual abuse investigations and
have also encouraged agents to use outside resources. USACIDC and AFOSI policies
require coordinating child sexual abuse investigations with specialists. The USACIDC
requirement is relatively new (May 2000); the AFOSI requirement has existed for several
years.

          Army

        In May 2000, the Army established a Sex Crimes/Child Abuse Monitorship
management control program.35 This program requires a senior agent at USACIDC
battalion, group, or headquarters levels to monitor all sex crime and child abuse
investigations to ensure uniformity in applying policy and technical procedures.
USACIDC policies further require the monitors to have CAPIT, FASTA, FAST, and
FACAT training. Additionally, as mentioned earlier, the CAPIT course is a required core
competency for all USACIDC agents.

       We met with two managers from USACIDC headquarters regarding the
monitorship program. Each had a master’s degree in forensic science and was directly
involved in training monitors at the group and battalion levels. Although the program
was too new for us to evaluate for actual results, when fully implemented it should
enhance USACIDC criminal investigations involving child sexual abuse.

          Navy

       NCIS Domestic Violence Units investigate sex crimes and family violence for the
Navy and the Marine Corps. These units are located in areas with strong Navy and
Marine presence. NCIS guidance recommends specific training to deal with domestic
violence, child abuse, and sex crimes. NCIS Special Agents in Charge, however, are
responsible for managing their unit training based on the resources available to the

35
     Criminal Investigation Operational Procedures, CID Regulation 195-1, chapter 6, section V, January 1,
     2000.


                                                     21
individual units.

        As indicated in Appendix F, NCIS has follow-on training that specifically covers
child sexual abuse for new agents. NCIS, however, does not have lesson plans, learning
objectives, or instructor guides for the training. According to the program manager for
child sexual abuse investigations, the Director, NCIS, “trusts the program managers to
teach what the students need to know.” Without specific lesson plans with learning
objectives and instructor guides, we do not believe that NCIS can ensure consistency in
the training and conformance with NCIS policy.

          Air Force

        The Air Force requires child sexual abuse investigations to be coordinated with an
AFOSI Regional Forensic Science Consultant (RFC). RFCs are special agents assigned
to geographic regions throughout the world to provide forensic science support to
installation-level investigations. Each RFC has a master’s degree in forensic science
from George Washington University, Washington, D.C., and has completed an internship
at the Cook County Medical Examiner’s office in Chicago, Illinois, as well as DoD
FACAT training. Additional training includes special agent laboratory protocols,
bloodstain pattern interpretation, child abuse interview techniques, post-blast
investigative techniques, and arson investigative techniques. The cases we reviewed
identified RFC coordination in 19 of 22 Air Force cases (86 percent) involving child
sexual abuse victims under the age of 12.36

        The program manager for AFOSI child sexual abuse investigations has a
doctorate with specialized postgraduate training in child development. She trains child
sexual abuse investigators at the Air Force Special Investigations Academy. She also
designed and conducts the Advanced Field Agent’s Course on Child Forensic Interviews
(referenced in Appendix F).

        Overall, the MCIOs demonstrate a willingness to use outside assistance and to
develop, conduct, or otherwise make training available to their agents to enhance their
child sexual abuse investigations. The MCIOs also organize resources to meet interests
unique to their Military Departments and effectively support their child sexual abuse
investigations.

                                        Recommendations
          5. We recommend that the Under Secretary of Defense for personnel and
             readiness review current Armed Forces Center for Child Protection
             resources and determine whether they should be enhanced.

          Management Comments. The USD(P&R) concurred and advised that his office

36
     According to the Forensic Science Program Manager, prior to a policy change in 2000, agents were not
     required to document RFC coordination in the investigative case file. Thus, actual RFC coordination
     may have been more than the number identified in cases reviewed.


                                                    22
had completed the review we recommended and was increasing AFCCP funding. In
commenting on the final report, OUSD(P&R) should update this information to indicate
the extent to which it increased AFCCP funding and the effective date.
       6. We recommend that the Naval Criminal Investigative Service develop
          coordinated lesson plans with learning objectives and instructor guides
          for its follow-on training for new agents to ensure consistency in training
          and conformance with governing policy.

        Management Comments. Navy concurred, advising that NCIS was developing
lesson plans to enhance its training, and they should be completed by September 30,
2001. According to Navy, however, NCIS headquarters program managers are subject
matter experts that the Director, NCIS, relies on to instruct contemporaneous practices,
policy and trends that cannot be reflected in standardized lesson plans. As a result, Navy
asked us to note that we did not find specific deficiencies in NCIS training, but that
lesson plans would enhance consistency in training and conformance with governing
policy. We so note. In commenting on the final report, Navy should provide a copy of
the new lesson plans and identify their implementation date.




                                            23
Appendix A. Summary of NAPA Recommendations

       1. The MCIOs and DoD pay much more attention to investigations into child sexual
abuse by implementing consistent policies, improving training, and examining the benefit of
using specialized, child-oriented investigative techniques.

        2. The MCIOs incorporate into their guidance and protocol a uniform set of
investigative policies and techniques on child sexual abuse which are based on findings and
recommendations by child psychology and sex crimes experts.

       3. DoD and the MCIOs establish a trained cadre of child sex crimes investigators
within each MCIO.

        4. Basic training for all MCIO agents focus on child sexual abuse investigations as a
distinct subject.

        5. DoD and MCIOs maintain a strong support structure of dedicated competencies --
such as a program manager, regional specialists and domestic violence units -- to support
investigations of child sex abuse.




                                              A-1
Appendix B. Organizations with Effective
            Practices for Child Sexual Abuse
            Investigations
Arlington County Police Dept.            Headquarters, FBI
Sex Crimes/Youth Offenses/               Crimes Against Children Unit, and
Domestic Violence Unit                   National Center for the Analysis
1425 N. Courthouse Road                  of Violent Crime
Arlington, VA 22201                      935 Pennsylvania Ave., N.W.
                                         Washington, DC 20535


Dallas Police Dept.                      New York Police Dept.
Youth and Family Crimes Division         Special Victims Liaison Unit
Child Abuse Unit                         1 Police Plaza
106 South Harwood Rd                     New York, NY 10023
Dallas, TX 75201


National Children’s Advocacy Center.     San Diego Police Dept.
200 Westside Square, Suite 700           Child Abuse Unit
Huntsville, AL 35801                     1401 Broadway
                                         San Diego, CA 92101


Director, Family Assessment Clinic       Virginia Beach Police Dept.
University of Michigan                   Special Victims Unit
Ann Arbor, MI 48104                      Municipal Center
                                         Virginia Beach, VA 23456




                                       B-1
Appendix C. Survey of Law Enforcement
            Approaches to Investigating
            Allegations of Child Sexual Abuse
            (Concept Validation)

        Allegations of child sex abuse present special challenges to the law enforcement
officers who must investigate them. Police officials, medical personnel, and child
welfare professionals each have an important interest in these matters. Sometimes it is
hard to tell exactly who should play what role at what point because, although these
organizational interests may overlap, they are not identical.

        We want to identify the proper roles and responsibilities the criminal
investigative organizations within the Department of Defense should play in child sex
abuse cases. These organizations consist of the U.S. Army Criminal Investigations
Command (CID); the Navy Criminal Investigative Service (NCIS); and the Air Force
Office of Special Investigations (AFOSI). These organizations investigate felony-level
crimes committed within their jurisdiction and function much like the detective division
of a large police department. They are all heavily involved in child sex abuse
investigations.

        To help us better define their role in child sex abuse investigations, we have
contacted a number of civilian law enforcement and child advocacy organizations. As a
result, we have identified a number of areas that appear to be of major significance.
This questionnaire serves two purposes. First, it is a form of feedback to let you know
the issues that were reported to us. Second, it gives you the opportunity to let us know
which concepts you consider to be the most important.

       Please take a few minutes to complete the questionnaire. Because of the select
number of agencies to which this is being addressed, your response to us is very
important.

       In each of the questions you are provided a series of choices. Please select the
one choice you believe most accurately represents your perspective.

                                               ***
1. The initial focus of law enforcement in an allegation of child sex abuse should be to
determine if a crime has been committed.

3 Strongly agree      4 Agree         No Opinion          Disagree      1 Strongly Disagree




                                            C-1
2. Non-law enforcement agencies should participate in gathering evidence to be used in
support of prosecution in child sex abuse cases.

1 Strongly agree      5 Agree         No Opinion        1 Disagree      1 Strongly Disagree

3. The primary focus of a Child Protective Service in responding to reports of child sex
abuse should be to facilitate treatment for the physical and emotional harm the victim has
suffered.

2 Strongly agree         Agree      1 No Opinion        3 Disagree       1 Strongly
Disagree

4. Multi-disciplinary teams should have jointly written and mutually approved protocols
that outline the structure, participants, and responsibilities of the team and its members.

5 Strongly agree      2 Agree          No Opinion       1 Disagree          Strongly
Disagree

5. Multi-disciplinary teams investigating allegations of child sex abuse should establish
clear rules for sharing evidence and information in specific cases.

6 Strongly agree      1 Agree         No Opinion          Disagree         Strongly Disagree

6. Law enforcement personnel who interview child sex abuse victims should have training
on principles of child development, to include their psycho-sexual development.

5 Strongly agree      1 Agree       1 No Opinion          Disagree         Strongly Disagree

7. Law enforcement personnel who interview child sex abuse victims should have training
on how children think and use language.

5 Strongly agree      2 Agree         No Opinion          Disagree         Strongly Disagree

8. Law enforcement personnel who interview child sex abuse victims should have training
on strategies to reduce suggestibility during the interview process.

5 Strongly agree      3 Agree         No Opinion          Disagree         Strongly Disagree

9. Law enforcement personnel who interview child sex abuse victims should have training
on how to recognize signs of sex abuse.

6 Strongly agree      2 Agree         No Opinion          Disagree         Strongly Disagree

10. Law enforcement personnel who interview child sex abuse victims should have
training on how to build rapport with children according to their age.

6 Strongly agree       Agree          No Opinion          Disagree        Strongly Disagree

                                            C-2
11. Law enforcement personnel who interview child sex abuse victims should have
training on how to assess the child's level of emotional development.

  Strongly agree     3 Agree          No Opinion       1 Disagree         Strongly Disagree

12. Law enforcement personnel who interview child sex abuse victims should have
training on how to assess the child's comprehension level.

4 Strongly agree      3 Agree         No Opinion          Disagree        Strongly Disagree

13. Law enforcement personnel who interview child sex abuse victims under the age of 8
or who are developmentally disabled should have training on interview strategies that
assess the child's competency.

5 Strongly agree     2 Agree          No Opinion          Disagree        Strongly Disagree

14. Law enforcement personnel who interview child sex abuse victims should have
training on the profiles or seduction strategies commonly used by child sex abuse
offenders.

4 Strongly agree      4 Agree         No Opinion          Disagree        Strongly Disagree

15. Law enforcement personnel who interview child sex abuse victims should have
training on interview strategies that consider the relationship between the victim and the
offender.

5 Strongly agree      3 Agree         No Opinion          Disagree        Strongly Disagree

16. Law enforcement personnel who interview child sex abuse victims should have
training on how to assess the victim's sense of guilt, shame, or embarrassment.

4 Strongly agree      2 Agree       2 No Opinion          Disagree         Strongly Disagree

17. Anatomically detailed dolls used during the interview of victims of child sex abuse
should only be used by trained personnel.

5 Strongly agree      2 Agree         No Opinion          Disagree        Strongly Disagree

18. Anatomically detailed drawings used during the interview of victims of child sex abuse
should only be used by trained personnel.

5 Strongly agree      2 Agree         No Opinion          Disagree        Strongly Disagree




                                            C-3
19. Freehand drawings used during the interview of victims of child sex abuse should only
be used by trained personnel.

4 Strongly agree      1 Agree         No Opinion       2 Disagree          Strongly Disagree

20. All interviews of victims in child sex abuse cases should be documented by video
recordings.

1 Strongly agree      2 Agree       2 No Opinion       3 Disagree          Strongly Disagree

21. It is preferable that properly trained law enforcement personnel conduct the forensic
interview of the victim in a child sex abuse investigation.

2 Strongly agree      3 Agree        2 No Opinion         Disagree       Strongly Disagree

22. It is preferable that only one interviewer be present in the interview room during the
forensic interview of the victim of child sex abuse.

2 Strongly agree      2 Agree         No Opinion       4 Disagree         Strongly Disagree

23. Law enforcement personnel who interrogate alleged child sex abuse offenders should
have training for interview strategies that consider the nature of the relationship between
the victim and the offender.

5 Strongly agree      1 Agree       2 No Opinion          Disagree        Strongly Disagree

24. Law enforcement personnel who investigate child sex abuse should have training on
the evidence to be obtained from the medical examination of victims.

5 Strongly agree      8 Agree         No Opinion          Disagree        Strongly Disagree

25. The organization most responsible for identifying all potential victims and witnesses in
child sex abuse cases is:

6 Police 4 Child Protective Services 1 Prosecutor       Medical/Mental Health
  Other: __________

26. Which organization should have the primary responsibility for gathering evidence in
support of potential prosecution in child sex abuse investigations?

8 Police 1 Child Protective Services   Prosecutor 1 Other:

27. Ensuring the immediate safety of juvenile victims should be the responsibility of:

5 Police 8 Child Protective Services 1 Prosecutor 2 Non-offending parents or Caretaker
8Other ________________________________________


                                            C-4
28. Assessing the degree of environmental and human risk facing child victims in sex
abuse cases should be the responsibility of which of:

3 Police 7 Child Protective Services 8 Prosecutor 1 Medical Personnel
8Other: _____________________________________________

29. Who should have primary responsibility for determining the extent of physical and
emotional harm suffered by the victims of child sex abuse?

8 Police 1 Child Protective Services 8 Medical and allied health sciences personnel
1 Non-Offending Parent or Caretaker 8 Other: _________________________________

30. What do you believe is the best approach to managing allegations of child sex abuse?

8 For the police to complete their investigation first; 8 For Child Protective Services to assess
the victim before referring the matter to the police; or 8 For the police and Child Protective
Services to form a multi-disciplinary team and work the issue together.

31. The initial interview of a potential child sex abuse victim should be conducted by:

6 Police (to see if a crime has been committed) 8 Medical personnel (to see if any physical
harm can be detected) Child Protective Services (to assess the extent to which the child is at
risk) 8Teacher or school counselor 8 Other:

32. Where do you think is the best place to interview a victim of child sex abuse?

1 In the interview room of a police department 8 Any safe and emotionally neutral
environment 8 In a medical environment (hospital, clinic, doctor's office, etc). 8In the
offices of Child Protective Services 8 Where the person having custody of the child wants the
interview to take place.




                                               C-5
Appendix D. Summary Results From Statistical Random
            Sample
                                          Child Sexual Abuse Investigations

                                                                           Victim Age*
                            0-2 Yrs     3-5 Yrs       6-8 Yrs   9-11 Yrs      Under      12-14 Yrs   15-17 Yrs       Over        Total
                                                                              12 Yrs                                11 Yrs
                            No % No %                No  %      No     % No %            No    %   No      %      No %         No     %
No. Cases                     5     3% 29 19%         27 18%     22    14% 83 54%         45   29% 25      16%     70 46%      153   100%
No. Subjects                  5     3% 29 19%         27 17%     23    15% 84 54%         46   30% 25      16%     71 46%      155   100%
  Active Duty                 3 60% 24 83%            21 78%     21    91% 69 82%         34   74% 21      84%     55 77%      124    80%
  Dependent                         0%    4 14%        2  7%      2     9%    8 10%        5   11%  3      12%      8 11%       16    10%
  DoD Civilian                      0%         0%         0%            0%    0    0%      3    7%          0%      3     4%     3     2%
  Non-DoD                     2 40% 1          3%     3 11%             0%    6    7%      4    9%  1       4%      5     7%    11     7%
  Unknown                                             1   4%                  1    1%                               0     0%     1     1%
     Total                    5 100% 29 100%         27 100%    23    100% 84 100%       46 100%     25 100%       71 100%     155   100%
No. Victims                   7          34          32         29          102          55          30            85          187
  Male                        1 14%       5 15%       6 19%      6     21% 18 18%         6 11%       2   7%        8     9%    26    14%
  Female                      6 86% 29 85%           26 81%     23     79% 84 82%        49 89%      28 93%        77 91%      161    86%
     Total                    7 100% 34 100%         32 100%    29    100% 102 100%      55 100%     30 100%       85 100%     187   100%
Average Victim Age
  When Abuse Began          1.6         4.1          6.9         10                       13          15                       9.9
  When Interviewed          2.3         5.6          8.4        12                        14          16                        11
     Difference             0.4         1.5          1.4        2.1                      0.5         0.5                       1.1
Was the Victim Part of the Military Community?
  Yes                         6 86% 33 97%           28 88% 22 76% 89 87%                37 67%      19 63% 56 66% 145 78%
  No                          1 14% 1          3%     4 13%   7 24% 13 13%               18 33%      11 37% 29 34% 42 22%
     Total                    7 100% 34 100%         32 100% 29 100% 102 100%            55 100%     30 100% 85 100% 187 100%
What Was the Subject's Relationship to the Victim?
  Parent                      1 14% 14 41%           11     34% 11 38%       37 36%       4   7%             0%     4   5%      41 22%
  Step-Parent                       0%    8 24%       5     16%  8 28%       21 21%       7  13%      4     13%    11 13%       32 17%
  Sibling/Step-Sibling              0%         0%            0%      0%       0   0%      1   2%             0%     1   1%       1   1%
  Other Relative              1 14%       1    3%     2      6%  3 10%        7   7%      1   2%      1      3%     2   2%       9   5%
  Parent Love Interest        1 14%            0%     2      6%      0%       3   3%          0%             0%     0   0%       3   2%
  Friend or Neighbor          3 43%       7 21%      10     31%  5 17%       25 25%      22 40%      17     57%    39 46%       64 34%
  Paid Caretaker                    0%    2    6%            0%      0%       2   2%          0%             0%     0   0%       2   1%
  Other                       1 14%       2    6%     2      6%  2   7%       7   7%     20 36%       7     23%    27 32%       34 18%
  Unknown                           0%         0%            0%      0%       0   0%          0%      1      3%     1   1%       1   1%
     Total                    7 100% 34 100%         32    100% 29 100%     102 100%     55 100%     30    100%    85 100%     187 100%
Type of Abuse Alleged
  Fondling                    4 57% 24 71%           26  81% 20 69%          74 73%      28 51%      12  40%       40 47%      114 61%
  Intercourse                       0%    4 12%       2   6%  2   7%          8   8%     25 45%      18  60%       43 51%       51 27%
  Sodomy                            0% 12 35%         4  13%  6 21%          22 22%       7 13%       7  23%       14 16%       36 19%
  Digital Manipulation        2 29%       7 21%       4  13%  6 21%          19 19%       7 13%       8  27%       15 18%       34 18%
  Visual Stimulation                0%    1    3%         0%  5 17%           6   6%      6 11%       1   3%        7   8%      13   7%
  Visual Exploitation               0%    1    3%     4 13%   3 10%           8   8%      2   4%          0%        2   2%      10   5%
  Foreign Object Insertion    1 14%            0%         0%      0%          1   1%      1   2%          0%        1   1%       2   1%
  Other                             0%         0%     2   6%  4 14%           6   6%      6 11%       5 17%        11 13%       17   9%
     Total                    7 100% 49 144%         42 131% 46 159%        144 141%     82 149%     51 170%      133 156%     277 148%




                                                                D-1
                                                                       Victim Age
                            0-2 Yrs    3-5 Yrs     6-8 Yrs    9-11 Yrs   Under    12-14 Yrs 15-17 Yrs  Over             Total
                                                                         12 Yrs                       11 Yrs
                          No % No %              No    %     No % No % No %                 No    % No %              No       %
Where Did the Alleged Abuse Occur?
 On/Off Mil Installation
    On                      5 71% 25 74%          19 59% 11 38% 60 59%               33 60%     20 67%      53 62%    113 60%
    On and Off                    0%    2  6%      2   6%  4 14% 8      8%            6 11%      4 13%      10 12%     18 10%
    Off                     2 29% 7 21%           11 34% 14 48% 34 33%               16 29%      6 20%      22 26%     56 30%
       Total                7 100% 34 100%        32 100% 29 100% 102 100%           55 100%    30 100%     85 100%   187 100%
 Location
    Vict/Subj Residence     2 29% 17 50%          14 44% 15 52%          48 47%      17 31%      5 17%      22 26%     70 37%
    Victim Residence        4 57%       5 15%      4 13%   1   3%        14 14%       3   5%     1   3%      4   5%    18 10%
    Subject Residence       1 14% 10 29%           9 28% 11 38%          31 30%      15 27%      8 27%      23 27%     54 29%
    Other                         0%    2  6%      5 16%   2   7%         9   9%     20 36%     16 53%      36 42%     45 24%
       Total                7 100% 34 100%        32 100% 29 100%       102 100%     55 100%    30 100%     85 100%   187 100%
Which Justice System Adjudicated the Case?
 UCMJ                       3 60% 24 83%          20 74% 20 87% 67 80%               33 72%     22 88% 55 77% 122 79%
 Civilian                   2 40%       5 17%      7 26%   3 13% 17 20%              13 28%      3 12% 16 23% 33 21%
    Total                   5 100% 29 100%        27 100% 23 100% 84 100%            46 100%    25 100% 71 100% 155 100%
* Age when abuse started
Notes:
 This table includes overall victim and subject data. In cases where one subject involves more than one victim, subject data
 are limited to a “one-count” to avoid duplication.




                                                             D-2
Appendix E. Policy, Regulation, or Program
            Guidance Addressing Challenges
            Unique to Child Sexual Abuse
            Investigations
                                                     Policy Addresses Challenge Area
                                                                               Air
    Challenge Area                                   DoD1 Army2 Navy3 Force4

    Multidisciplinary teams
     Using multidisciplinary teams                   Yes     Yes      Yes     Yes
     Sharing information and evidence                Yes     Yes      Yes     Yes
     Coordinating actions                            Yes     Yes      Yes     Yes

    Interview of child victims
      Recognizing child development parameters       No      Yes      Yes     Yes
      Reducing suggestibility                        Yes     Yes      Yes     Yes
      Using anatomical dolls                         No      Yes      Yes     No
      Using anatomical drawings                      No      Yes      Yes     No
      Using freehand drawings                        Yes     Yes      Yes     Yes
      Using child-friendly or neutral
       interview locations                            No     Yes      Yes     Yes
      Recording interviews                            No     Yes      Yes     Yes

    Medical examination
     Obtaining evidence from medical examination     Yes     Yes      Yes     Yes

    Interview of accused
      Using appropriate interview strategies          No     Yes      Yes     Yes

1
  DoD Directive 6400.1, Family Advocacy Program, June 23, 1992; DoD Instruction,
6400.3, Family Advocacy Command Assistance Team, February 3, 1989, and the DoD
Family Advocacy Command Assistance Team Handbook.
2
  Army Regulation Army Regulation 608-18, The Army Family Advocacy Program,
September 1, 1995; CID Regulation 195-1, Criminal Investigation Operational
Procedures, January 1, 2000; CID Pamphlet 195-10, Crime Scene Handbook, June 30,
1999, and Field Manual 19-20, Law Enforcement Investigations, November 1985.
3
  Chief of Naval Operations Instruction (OPNAVINST) 1752.2A, Family Advocacy
Program, July 17, 1996; Naval Criminal Investigative Service Manual 3 (NCIS 3), and
American Prosecutors Research Institute manual, Investigation and Prosecution of
Child Abuse, Second Edition, adopted as NCIS investigative policy at NCIS 3, Chapter
34, paragraph 3.5.


                                               E-1
4
 Air Force Instruction (AFI) 40-301, Family Advocacy, July 22, 1994; AFI 51-201,
Administration of Military Justice, November 2, 1999; AFI 71-101, Vol 1, Criminal
Investigations, December 1, 1999; Air Force Office of Special Investigations Manual,
(AFOSIMAN) Vol 2, 71-103, AFOSI Forensic Sciences, October 23, 1995; Air Force
Office of Special Investigations Instruction (AFOSII) 71-105, Investigations,
December 1, 1998; AFOSII 71-107, Processing Investigative Matters, March 15, 2000;
AFOSIMAN 71-118, General Investigative Methods, December 21, 1998; AFOSIMAN
71-122, Criminal Investigations, August 30, 1996; AFOSI Handbook 71-124, Crime
Scene Handbook, March 13, 1998.




                                        E-2
   Appendix F. Training That Addresses
               Challenges Unique to Child Sexual
               Abuse Investigations
                                                     Training Addresses Challenge Area
                                         DoD         Army             Navy             Air Force
 Challenge Area                         FACAT     ASAC CAPIT NCIS APSAC AFOSI AFACCFI

 Multidisciplinary teams
  Using multidisciplinary teams           Yes       Yes      Yes       Yes      Yes       Yes         Yes
  Sharing information and evidence        Yes       Yes      Yes       Yes      Yes       Yes         Yes
  Coordinating actions                    Yes       Yes      Yes       Yes      Yes       Yes         Yes

 Interview of child victims
   Recognizing child development
     parameters                           Yes       Yes      Yes       Yes      Yes       Yes         Yes
   Reducing suggestibility                Yes       Yes      No        Yes      Yes       Yes         Yes
   Building rapport                       Yes       Yes      Yes       Yes      Yes       Yes         Yes
   Recognizing signs of sex abuse         Yes       No       Yes       Yes      Yes       No          Yes
   Using anatomical dolls                 Yes       Yes      Yes       Yes      Yes       Yes         Yes
   Using anatomical drawings              Yes       Yes      No        Yes      Yes       Yes         Yes
   Using freehand drawings                Yes       Yes      Yes       Yes      Yes       Yes         Yes
   Using child-friendly or neutral
     interview locations                  Yes       Yes      Yes       Yes      Yes       Yes         Yes
   Recording interviews                   Yes       Yes      Yes       Yes      Yes       Yes         Yes
   Identifying other possible victims     Yes       Yes      No        Yes      Yes       Yes         Yes

 Medical examination
  Obtaining evidence from medical         Yes       Yes      Yes       Yes      Yes       Yes         Yes
   examination

 Interview of accused
   Using appropriate interview            Yes       Yes      Yes       Yes      No        Yes         No
    strategies

AFACCFI     AFOSI Advanced Field Agent’s Course on Child Forensic Interviews
AFOSI       AFOSI (Initial and follow-on training. All AFOSI agents attend this training.)
APSAC       American Professional Society on Abuse of Children
ASAC        USACIDC Apprentice Special Agent Course
CAPIT       Child Abuse Prevention and Investigative Techniques
FACAT       Family Advocacy Command Assistant Team
NCIS        NCIS (Initial and follow-on training. All NCIS agents attend this training. Course
            presentation slides identified coverage as shown in the table. However, NCIS did not
            have written learning objectives, lesson plans, or instructor guides for the training.)


                                                   F-1
Appendix G. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)*
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Force Management Policy)
Deputy Comptroller (Program/Budget), Office of the Under Secretary of Defense
  (Comptroller)*
Deputy Chief Financial Officer, Accounting Policy Directorate, Office of the Under
  Secretary of Defense (Comptroller)


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)*
Inspector General, Department of the Army*
U.S. Army Audit Agency
Commanding General, U.S. Army Criminal Investigation Command*
Commandant, U.S. Army Military Police School*


Department of the Navy
Naval Inspector General*
Naval Audit Service
Director, Naval Criminal Investigative Service*


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)*
Inspector General, Department of the Air Force*
Auditor General, Department of the Air Force
Commander, Air Force Office of Special Investigations*


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Intelligence Agency


*Recipient of draft report
                                          G-1
Director, National Security Agency
Inspector General, National Security Agency
Commandant, Defense Acquisition University
Director, Defense Criminal Investigative Service*


Non-Defense Federal Organizations and Individuals
None


Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




*Recipient of draft report
                                          G-2
APPENDIX - H   Under Secretary of Defense (P&R) Comments




               H-1
Department of Army Comments




                         H-2
      Department of Army Comments




H-3
Department of Army Comments




                         H-4
      Department of Navy Comments




H-5
Department of Navy Comments




                          H-6
      Department of Navy Comments




H-7
Department of Navy Comments




                          H-8
      Department of Air Force Comments




H-9
Department of Air Force Comments




                           H-10
                       Evaluation Team Members
Deputy Assistant Inspector General for Criminal Investigative Policy and Oversight,
Office of the Assistant Inspector General for Investigations, Office of the Inspector
General, Department of Defense.


John J. Perryman, Project Manager

Lt. Colonel Brian A. Braden, Evaluator

Love Silverthorn, Investigative Review Specialist

Randy Knight, Criminal Investigator

Craig Rupert, Criminal Investigator

Scott Russell, Criminal Investigator
